APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals
for the Ninth Circuit (August 8, 2019) .............. 1a
Order of the United States Court of Appeals
for the Ninth Circuit (June 10, 2019) ................ 9a
Order Granting Plaintiff’s Motion to Remand to
Orange County Superior Court [11] and
Denying as Moot Defendant’s Motion to Compel
Arbitration [15] and Motion to Dismiss [16]
(December 13, 2018) ......................................... 11a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for Panel
Rehearing (September 17, 2019) .................... 24a
Relevant Statutory Provisions
and Judicial Rules ............................................ 26a
Notice of Removal of Defendant
Cox Communications, Inc.
(June 22, 2018) ................................................. 47a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT
(AUGUST 8, 2019)
UNITED STATES COURT OF APPEAL
FOR THE NINTH CIRCUIT
________________________
DAVID EHRMAN, Individually and
on Behalf of All Others Similarly Situated,

Plaintiff-Appellee,
v.
COX COMMUNICATIONS, INC.; COXCOM, LLC;
COX COMMUNICATIONS CALIFORNIA, LLC, and
DOES, 1 Through 25, Inclusive,

Defendants-Appellants.

________________________
No. 19-55658

D.C. No. 8:18-cv-01125-JVS-DFM
Appeal from the United States District Court
for the Central District of California
James V. Selna, District Judge, Presiding
Before: Milan D. SMITH, JR., and
Michelle T. FRIEDLAND, Circuit Judges,
and Michael H. SIMON, District Judge.

 The Honorable Michael H. Simon, United States District Judge
for the District of Oregon, sitting by designation.

App.2a
M. SMITH, Circuit Judge:
When a defendant removes a case to federal court
pursuant to the Class Action Fairness Act of 2005
(CAFA), 28 U.S.C. § 1332(d), how much evidence of the
parties’ citizenships must it provide? If the defendant’s
citizenship allegations are unchallenged factually, the
answer is none. In such cases, all a removing party must
do is provide a short and plain statement of the grounds
for removal. Because Defendants Cox Communications’
(and related entities’) notice of removal did just that,
and because Plaintiff David Ehrman did not factually
attack Cox’s jurisdictional allegations, we reverse the
district court’s grant of Ehrman’s motion to remand.
Factual and Procedural Background
Ehrman filed a class action complaint against
Cox in Orange County Superior Court, alleging that
Cox had engaged in unlawful business practices related
to the advertisement and sale of residential internet
services. Ehrman brought the case on behalf of himself
and “all consumers in California who paid for [Cox’s]
residential Internet services within four years from
the date this action was filed.”
Cox removed the case to the district court pursuant
to CAFA. Cox alleged in its notice of removal that
Ehrman’s suit met CAFA’s removal requirements
because it was a putative class action with more than
100 class members, that there was minimal diversity
between the parties, and that the amount in controversy
exceeded $5,000,000, exclusive of interest and costs.
Cox, a purported citizen of Delaware and Georgia,
asserted based on information and belief that Ehrman
and all class members are citizens of California.

App.3a
Ehrman then moved to remand the case to state
court. Asserting a facial challenge to Cox’s notice of
removal, Ehrman argued that Cox had failed to
adequately plead the existence of minimal diversity.
He claimed that Cox’s allegations of citizenship were
insufficient because they relied “purely on an allegation
of residency and [on] ‘information and belief.’”
The district court granted Ehrman’s motion to
remand. It reasoned:
In the absence of instruction from the Ninth
Circuit . . . this Court declines to find that
the complaint alone created a rebuttable
residency-domicile presumption of removability. . . . [T]he Court finds that Cox’s reliance
on the residency allegation in the complaint
[ ] amounted to mere sensible guesswork
such that it is insufficient for establishing
minimal diversity.
We granted Cox’s motion for leave to appeal to
provide guidance on what a defendant must allege,
and what evidence it must provide when removing a
case pursuant to CAFA.
Jurisdiction and Standard of Review
We have jurisdiction pursuant to 28 U.S.C. § 1453
(c)(1), which allows us to “accept [a timely] appeal
from an order of a district court granting or denying
a motion to remand a class action to the State court.”
“We review de novo a district court’s decision to
remand a removed case and its determination that it
lacks subject matter jurisdiction.” Lively v. Wild Oats
Mkts., Inc., 456 F.3d 933, 938 (9th Cir. 2006).

App.4a
Analysis
Congress enacted CAFA with the “intent . . . to
strongly favor the exercise of federal diversity jurisdiction over class actions with interstate ramifications.”
S. Rep. No. 109-14, at 35 (2005), as reprinted in 2005
U.S.C.C.A.N. 3, 34. Because “a party bringing suit in
its own State’s courts might (seem to) enjoy . . . a
home court advantage against outsiders,” Home Depot
U.S.A., Inc. v. Jackson, 139 S. Ct. 1743, 1751 (2019)
(Alito, J., dissenting), federal diversity jurisdiction provides “‘a neutral forum’ for parties from different
States,” id. at 1746 (quoting Exxon Mobil Corp. v.
Allapattah Servs., Inc., 545 U.S. 546, 552 (2005)). To
this end, CAFA confers jurisdiction on federal district
courts over class actions when, among other things,
“any member of a class of plaintiffs is a citizen of a State
different from any defendant.” 28 U.S.C. § 1332(d)(2)
(A). Unlike the complete diversity of citizenship generally required by § 1332(a), therefore, CAFA requires
only “minimal diversity.” Bush v. Cheaptickets, Inc.,
425 F.3d 683, 684 (9th Cir. 2005).
Simply because a class action satisfies the requirements of CAFA, however, does not mean that it must
be filed in federal court. Such cases may also be filed
in state courts, which enjoy concurrent jurisdiction
over such actions. See Tafflin v. Levitt, 493 U.S. 455,
458 (1990). A defendant in state court who wishes to
litigate in federal court may therefore remove a class
action that satisfies CAFA’s requirements. See Home
Depot, 139 S. Ct. at 1746. At issue here is what that
removing defendant must plead in its notice of removal.
As the removing party, Cox had the burden of
pleading minimal diversity. See Abrego Abrego v. Dow

App.5a

Chem. Co., 443 F.3d 676, 685 (9th Cir. 2006). Accord-

ingly, Cox had to file in the district court a notice of
removal “containing a short and plain statement of
the grounds for removal.” 28 U.S.C. § 1446(a). “Congress, by borrowing the familiar ‘short and plain statement’ standard from Rule 8(a), intended to ‘simplify
the “pleading” requirements for removal’ and to
clarify that courts should ‘apply the same liberal rules
[to removal allegations] that are applied to other
matters of pleading.’” Dart Cherokee Basin Operating
Co. v. Owens, 135 S. Ct. 547, 553 (2014) (alteration in
original) (quoting H.R. Rep. No. 100-889, at 71 (1988),
as reprinted in 1988 U.S.C.C.A.N. 5982, 6031–32). A
party’s allegation of minimal diversity may be based
on “information and belief.” Carolina Cas. Ins. Co. v.
Team Equip., Inc., 741 F.3d 1082, 1087 (9th Cir.
2014). The pleading “need not contain evidentiary
submissions.” Dart Cherokee, 135 S. Ct. at 551.
In its notice of removal, Cox alleged that it was a
citizen of Delaware and Georgia. It also alleged:
As admitted in the Complaint, [Ehrman] is
a resident of California. [Cox] is informed
and believes, and on that basis alleges, that
[Ehrman] is a citizen of the state in which
he resides, as alleged in the Complaint.
[Cox] is informed and believes, and on that
basis alleges, that all purported class members
are citizens of California, as alleged in the
Complaint.
Ehrman argues, and the district court agreed,
that Cox’s allegations of citizenship were insufficient
because they relied on allegations that Ehrman or
other class members reside in California.

App.6a
We agree that residency is not equivalent to
citizenship. A “natural person’s state citizenship is []
determined by her state of domicile, not her state of
residence.” Kanter v. Warner-Lambert Co., 265 F.3d
853, 857 (9th Cir. 2001). “A person’s domicile is her
permanent home, where she resides with the intention
to remain or to which she intends to return. A person
residing in a given state is not necessarily domiciled
there, and thus is not necessarily a citizen of that
state.” Id. (citations omitted).
Here, however, Cox did not merely allege residency. It alleged that Ehrman and all putative class
members were citizens of California. That Cox’s
notice of removal mentioned Ehrman’s residency is
immaterial to our analysis. Cox did not have to explain
why it believed Ehrman or the putative class members
were citizens of California. As we explained above, a
defendant’s allegations of citizenship may be based
solely on information and belief. See Carolina Cas.,
741 F.3d at 1087. Because Cox provided a short and
plain statement alleging that Ehrman and the putative
class members were citizens of California, its jurisdictional allegations were sufficient—at least in the
absence of a factual or as-applied challenge.
The district court also erred by placing on Cox a
burden to prove its jurisdictional allegations in response
to Ehrman’s facial challenge. “[A]t the pleading stage,
allegations of jurisdictional fact need not be proven
unless challenged.” NewGen, LLC v. Safe Cig, LLC, 840
F.3d 606, 614 (9th Cir. 2016); see also Dart Cherokee,
135 S. Ct. at 553 (“[T]he defendant’s amount-in-controversy allegation should be accepted when not contested
by the plaintiff or questioned by the court.”). Because
“no antiremoval presumption attends cases invoking

App.7a
CAFA,” Dart Cherokee, 135 S. Ct. at 554, courts should
be especially reluctant to sua sponte challenge a
defendant’s allegations of citizenship.
Ehrman did not factually challenge Cox’s jurisdictional allegations. Instead, his motion to remand
asserted a facial challenge to the legal adequacy of
Cox’s notice of removal. Such a challenge “accepts the
truth of the [removing party’s] allegations but asserts
that they ‘are insufficient on their face to invoke federal jurisdiction.’” Leite v. Crane Co., 749 F.3d 1117,
1121 (9th Cir. 2014) (quoting Safe Air for Everyone v.
Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004)).1 Nor did
the district court independently question Cox’s allegations.2 For these reasons, Cox should not have been
required to present evidence in support of its allegation
of minimal diversity. Accepting the truth of Cox’s
allegations, Ehrman “is a citizen of [California],” and
“all purported class members are citizens of California.”
In short, Cox alleged the parties’ citizenships based
on information and belief in its notice of removal. And,
because Ehrman asserted a facial, rather than a
factual or as-applied, challenge to the notice of removal,
those allegations were sufficient. See NewGen, 840 F.3d
at 614. No evidence was required.
1 We note that, had Ehrman challenged the truth of the jurisdictional allegations in Cox’s notice of removal, the district court
should have permitted jurisdictional discovery had Cox requested
it. See Laub v. U.S. Dep’t. of the Interior, 342 F.3d 1080, 1093
(9th Cir. 2003) (“[D]iscovery should be granted when . . . the
jurisdictional facts are contested or more facts are needed.”).
2 Indeed, the district court acknowledged that it would be
“inconceivable” that neither Ehrman nor any of the 832,000
purported class members, all of whom subscribed to residential
internet service in California, were citizens of California.

App.8a
We conclude by clarifying the scope of our decision.
Although the district court focused much of its analysis
on the question of whether allegations of a party’s
residency constitutes prima facie evidence of that
party’s domicile, we need not address that issue today.
Cf. Mondragon v. Capital One Auto Fin., 736 F.3d 880,
886 (9th Cir. 2013) (noting that the Ninth Circuit has
not yet addressed whether “a person’s residence [is]
prima facie evidence of the person’s domicile”). Because
Ehrman did not factually challenge Cox’s jurisdictional
allegations, Cox did not need to provide evidence of
either Ehrman’s or the purported class members’
citizenship. We hold only that Cox’s jurisdictional
allegations, which provided a short and plain statement
of the parties’ citizenships based on information and
belief, satisfied Cox’s burden of pleading minimal
diversity.
Conclusion
Congress enacted CAFA to “facilitate adjudication
of certain class actions in federal court.” Dart Cherokee,
135 S. Ct. at 554 (emphasis added). In keeping with
that purpose, we require removing defendants to
provide only a short and plain statement of the grounds
for removal. And when a defendant’s allegations of
citizenship are unchallenged, nothing more is required.
By holding that Cox’s jurisdictional allegations fell
short, and by requiring Cox to support those allegations with evidence in response to only a facial—not a
factual or as-applied—challenge, the district court
misconstrued CAFA’s pleading requirements. We therefore reverse the district court’s grant of Ehrman’s motion
to remand.
REVERSED AND REMANDED.

App.9a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT
(JUNE 10, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
DAVID EHRMAN, Individually and
on Behalf of All Others Similarly Situated,

Plaintiff-Respondent,
v.
COX COMMUNICATIONS, INC.; ET AL.,

Defendants-Petitioners,
and
DOES, 1 Through 25, Inclusive,

Defendant.

________________________
No. 18-80195

D.C. No. 8:18-cv-01125-JVS-DFM
Central District of California, Santa Ana
Before: SILVERMAN and MURGUIA, Circuit Judges
The petition for permission to appeal pursuant to
28 U.S.C. § 1453(c) is granted. See Coleman v. Estes
Express Lines, Inc., 627 F.3d 1096, 1100 (9th Cir. 2010).
Within 7 days after the filing date of this order, peti-

App.10a
tioner shall perfect the appeal pursuant to Federal
Rule of Appellate Procedure 5(d).
Pursuant to 28 U.S.C. § 1453(c)(2), the court
shall complete all action on this appeal, including
rendering judgment, not later than 60 days after the
date on which the appeal was filed. See also Bush v.
Cheaptickets, Inc., 425 F.3d 683, 685 (9th Cir. 2005)
(stating that 60-day time period begins to run when
the court accepts the appeal). The parties shall submit,
via electronic filing, simultaneous briefs and excerpts
of record within 10 days after the filing date of this
order. No reply briefs will be accepted.
Also, within 10 days after the filing date of this
order, by 5:00 p.m. (Pacific time), the parties shall
submit to the Clerk’s Office in San Francisco 7 copies
of the briefs and 4 copies of the excerpts of record in
paper format, accompanied by certification that the
briefs are identical to the versions submitted electronically.
Any motion to extend time to file the briefs shall
strictly comply with the requirements set forth in 28
U.S.C. § 1453(c)(3).
The Clerk shall calendar this case during the
week of July 8, 2019 in Pasadena, California.

App.11a
ORDER GRANTING PLAINTIFF’S MOTION
TO REMAND TO ORANGE COUNTY SUPERIOR
COURT [11] AND DENYING AS MOOT
DEFENDANT’S MOTION TO COMPEL
ARBITRATION [15] AND MOTION
TO DISMISS [16]
(DECEMBER 13, 2018)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________________
DAVID EHRMAN
v.
COX COMMUNICATIONS, INC. ET AL
________________________
No. SACV 18-01125 JVS (DFMx)
Before: James V. SELNA, District Judge.
CIVIL MINUTES–GENERAL
Plaintiff David Ehrman (“Ehrman”) filed this
action in Orange County Superior Court on May 9,
2018. (Not., Docket No. 1-1, Ex. A.) Defendant Cox
Communications, Inc. (“Cox”) filed a Notice of Removal
on June 22, 2018. The Court has two motions before
it.1
1 Cox also filed an alternative motion to dismiss in the even
that the motion to compel arbitration was denied. (Mot., Docket
No. 16.) On August 10, 2018, Ehrman filed a second amended
complaint. (SAC, Docket No. 17.) Thus, the Court need not
reach the merits of the motion to dismiss.

App.12a
First, Ehrman filed a motion to remand the case
to Orange County Superior Court. (Mot., Docket No.
12.) Cox filed an opposition. (Opp’n, Docket No. 18.)
Ehrman replied. (Reply, Docket No. 22.) Cox also
included a Notice of Recent Decision to which Ehrman
responded. (Not., Docket No. 29; Response, Docket No.
34.)
Second, Cox filed a motion to compel arbitration.
(Mot., Docket No. 15.) Ehrman filed an opposition.
(Opp’n, Docket No. 19.) Cox replied. (Reply, Docket
No. 23.)
For the following reasons, the Court grants
Ehrman’s motion to remand and denies as moot Cox’s
motion to compel arbitration.
I.

Background

This putative class action arises from Cox’s
provision of Internet services to Ehrman and other
consumers in California. (Not., Docket No. 1-5, ¶ 4.)
Ehrman is a resident of California who alleges that Cox,
a citizen of Delaware and Georgia, offers consumers
a variety of high-speed plans, charging prices based
on different “tiers” of Internet connection speed. (Id.
¶¶ 3, 8; Not., Docket No. 1 ¶ 14.) Cox’s advertisements allegedly typically identify an Internet connection speed up to that which a subscriber may expect
to receive service. (Not., Docket No. 1-5 ¶ 10.) Ehrman
alleges that Cox misled him and other similarlysituated consumers by promising to deliver residential
Internet service at speeds that consumers could rarely
—if ever—achieve. (Id. ¶ 7.)
Ehrman pleads claims for fraud, violation of the
False Advertising Law (“FLA”) (Cal. Bus. & Prof. Code

App.13a
§ 17500 et seq.), violation of the Consumers Legal
Remedies Act (“CLRA”) (Cal. Civ. Code § 1750 et seq.),
violation of the Unfair Competition Law (“UCL”) (Cal.
Bus & Prof. Code § 17200 et seq.), restitution, and
unjust enrichment. (Not., Docket No. 1-1, Ex. A ¶¶ 2762.) Ehrman brings these claims on behalf of himself
and a purported class of consumers in California who
paid for Defendants’ residential Internet services
within four years from May 9, 2018, the day this
action was filed. (Id. ¶ 16.) After filing the present
suit, Ehrman attempted to opt-out of the arbitration
provision. (Ehrman Decl., ¶ 9, Ex. 4.)
Cox’s Notice of Removal identified two bases for
removal to federal court: (1) diversity jurisdiction and
(2) jurisdiction under the Class Action Fairness Act
(“CAFA”). (Not., Docket No. 1 at 2.)
II.

Legal Standard
A. Remand

Under 28 U.S.C. § 1441(a), a defendant may
remove a civil action from state court to federal court
so long as original jurisdiction would lie in the court
to which the action is removed. City of Chicago v.
Int’l Coll. of Surgeons, 522 U.S. 156, 163 (1997). According to the Ninth Circuit, courts should generally “strictly
construe the removal statute against removal jurisdiction.” Gaus v. Miles, Inc., 980 F.2d 564, 566 (9th Cir.
1992). This “‘strong presumption’ against removal
jurisdiction means that the defendant always has the
burden of establishing that removal is proper.” Id.
(quoting Nishimoto v. Federman-Bachrach & Assocs.,
903 F.2d 709, 712 n.3 (9th Cir. 1990)).

App.14a
However, “no antiremoval presumption attends
cases invoking CAFA, which Congress enacted to
facilitate adjudication of certain class actions in federal court.” Dart Cherokee Basin Operating Co., LLC
v. Owens, 135 S. Ct. 547, 554 (2014). CAFA provides
district courts with original jurisdiction over any
class action in which (1) the amount in controversy
exceeds $5,000,000, exclusive of interest and costs,
(2) any plaintiff class member is a citizen of a state
different from any defendant, (3) the primary defendants are not states, state officials, or other government entities against whom the district court may be
foreclosed from ordering relief, and (4) the number of
plaintiffs in the class is at least 100. 28 U.S.C.
§§ 1332(d)(2), (d)(5).
B. Compelling Arbitration
The FAA creates a “national policy favoring arbitration.” Nitro-Lift Techs, LLC v. Howard, 568 U.S.
17, 20 (2012). “The ‘principal purpose’ of the FAA is
to ‘ensur[e] that private arbitration agreements are
enforced according to their terms.’” AT&T Mobility
LLC v. Concepcion, 563 U.S. 333, 344 (2011) citing

Volt Info. Scis., Inc. v. Bd. of Trustees of Leland
Stanford Junior Univ., 489 U.S. 468, 478 (1989). The

FAA states that a written agreement to arbitrate “shall
be valid, irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the revocation
of any contract.” 9 U.S.C. § 2. “By its terms, the
[FAA] leaves no place for the exercise of discretion by
a district court, but instead mandates that district
courts shall direct the parties to proceed to arbitration
on issues as to which an arbitration agreement has
been signed.” Dean Witter Reynolds, Inc. v. Byrd, 470

App.15a
U.S. 213, 218, 105 S. Ct. 1238, 1241, 84 L. Ed. 2d 158
(1985).
III. Discussion
A. Motion to Remand
Ehrman filed a motion to remand arguing that
Cox’s removal was improper for three reasons. First,
Ehrman states that Cox’s removal papers fail to
establish any facts showing that diversity of citizenship
exists among the parties. (Mot., Docket No. 12 at 1.)
Second, Ehrman contends that even if the removal
papers set forth a prima facie case that diversity
existed at some point in time, Cox failed to establish
that it existed on May 9, 2018 or June 22, 2018, the
dates on which the Complaint and the Notice of
Removal were filed respectively. (Id. at 3.) Third,
Ehrman argues that the removal papers do not show
that Ehrman’s individual claims placed the amount
in controversy above $75,000. (Id.)
To establish citizenship for diversity purposes, a
natural person must be a citizen of the United States
and be domiciled in a particular state. Kanto v. Wellesley Galleries, Ltd., 704 F.2d 1088, 1090 (9th Cir. 1983).
While Ehrman’s Complaint states that he is a resident
of California, Ehrman disputes that Cox can remove
the case on the basis of diversity because residency
and citizenship are not the same. (Mot., Docket No.
12 at 5.)
Ehrman accepts for purposes of the motion for
remand that (1) Cox is a citizen of Georgia, where it
has its principal place of business, and Delaware,
where it is incorporated; (2) there are over 800,000
members of the proposed class; and (3) that tens of

App.16a
millions of dollars are in controversy. (Mot., Docket
No. 12 at 7–8; Not., Docket No. 1 ¶ 14.) Thus, the only
issue is whether Plaintiff or other putative class
members are citizens of California (or any other state
other than Georgia and Delaware) such that minimal
diversity exists. (Mot., Docket No. 12 at 8.) The
Notice of Removal states:
As admitted in the Complaint, Plaintiff is a
resident of California. Defendant is informed
and believes, and on that basis alleges, that
Plaintiff is a citizen of the state in which he
resides, as alleged in the Complaint.
(Not., Docket No. 1 ¶ 12.)
Ehrman argues that since an individual is not
automatically domiciled in the location where he
resides, Cox has not met its burden of establishing that
Ehrman is a citizen of both the United States and
California such that minimal diversity exists between
the parties. (Mot., Docket No. 12 at 8.) See Paris v.
Michael Aram, Inc., 2018 WL 501560, at *1–*2 (C.D.
Cal. Jan 22, 2018) (finding that diversity was not
established when notice of removal simply alleged
that plaintiff was residing and working in California
during the relevant time period). Similarly, Ehrman
indicates that the Notice of Removal failed to identify
any consumer within the class who was a citizen of a
state other than Georgia and Delaware on the relevant
dates in question. (Mot., Docket No. 12 at 10.) Ehrman
urges the Court not to allow Cox to “guess its way
into federal court” through a “remove first, inquire
later” approach. (Reply, Docket No 22 at 1–2.) Rather,
Ehrman suggests that Cox could have taken jurisdictional discovery in state court or conducted an investigation into the jurisdictional facts before removing

App.17a
the case in order to meet the low burden of establishing that at least one putative class member is
diverse from Cox. (Id. at 3.)
Ehrman cites Harris v. Bankers Life & Cas. Co.,
425 F.3d 689 (9th Cir. 2005) for the proposition that
the thirty-day removal clock does not begin ticking
based simply on an allegation of the plaintiff’s residence
because such an allegation does not reveal whether
diversity of citizenship exists. (Reply, Docket No. 22
at 2.) In Harris, the Ninth Circuit decided the question
of whether “the burden lies with the defendant to
investigate the necessary jurisdictional facts within
the first thirty days of receiving an indeterminate
complaint, or whether the determination be limited
to the face of the initial pleading.” 425 F.3d at 693.
There, the plaintiff’s state court complaint alleged
the plaintiff’s past residence—not his current citizenship. Id. The court stated:
We now conclude that notice of removability
under § 1446(b) is determined through examination of the four corners of the applicable
pleadings, not through subjective knowledge
or a duty to make further inquiry. Thus, the
first thirty-day requirement is triggered by
defendant’s receipt of an “initial pleading”
that reveals a basis for removal. If no ground
for removal is evident in that pleading, the
case is “not removable” at that stage. In such
case, the notice of removal may be filed within
thirty days after the defendant receives “an
amended pleading, motion, order or other
paper” from which it can be ascertained
from the face of the document that removal
is proper.

App.18a

Id. at 694 (citing 28 U.S.C. § 1446(b)). Applying this

standard, the court distinguished between the residence pleaded in the complaint and citizenship, determining that the initial complaint did not trigger
removability. Id. at 695. In so holding, the Ninth Circuit
emphasized, “If we were to flip the burden and
interpret the first paragraph of 28 U.S.C. § 1446(b)
(the first thirty-day window) to apply to all initial
pleadings unless they clearly reveal that the case is
not removable, defendants would be faced with an
unreasonable and unrealistic burden to determine
removability within thirty days of receiving the initial
pleading.” Id. at 694.
At oral argument, counsel for Ehrman urged the
court not to find that the initial complaint’s allegation
of Ehrman’s California residence is synonymous with
United States and California citizenship because a
rebuttable residency-domicile presumption would have
the effect of burdening many defendants who would
be forced to scramble to remove within thirty days of
receiving the initial pleading. He further emphasized
that finding a rebuttable presumption of citizenship
based on residence here would effectively create two
separate standards for examining pleadings as they
relate to removability based on diversity of citizenship
for CAFA cases and non-CAFA cases.
Cox instead urges the Court to find that removal
is proper because Ehrman alleged his own residence
and “home” in California such that there is sufficient
evidence to deem him a citizen of California. (Opp’n,
Docket No. 18 at 1.) Ehrman alleges that he and his
family use the Internet service in California, his
Venue Affidavit submitted with the Complaint states:
“For years, continuing to the present day, I have

App.19a
purchased Internet Services from Cox. . . . and received
Internet services at my home in Orange County,
California,” and a number of Ehrman’s bills establish
that he received Cox services at the same California
address from 2015-2018. (Not., Docket No. 1-1 at 20
¶3; Wilson Decl., Docket Nos. 15-6, 15-7, 15-9, 15-10,
15-12, 15-14.) Cox indicates that in the absence of
evidence to the contrary, Ehrman should be treated
as a citizen of his state of residence for federal
diversity purposes, particularly in light of the extensive
billing records that show Ehrman has received Internet
services at the California address he considers “home”
for years. (Opp’n, Docket No. 18 at 9.) See NewGen,
LLC v. Safe Cig, LLC, 840 F.3d 606, 614 (9th Cir.
2016) (“[T]he place where a person lives is taken to
be his domicile until facts adduced establish the contrary.”) (citing Anderson v. Watts, 138 U.S. 694, 706
(1891)); Zavala v. Deutsche Bank Tr. Co. Americas, No.
C 13-1040 LB, 2013 WL 3474760, at *3 (N.D. Cal. July
10, 2013) (“[T]he complaint indicates that [plaintiff]
resides in California. A party’s residence is ‘prima
facie’ evidence of domicile. In the absence of evidence
to the contrary, [plaintiff] is a California citizen for
diversity purposes.”) (citing State Farm Mut. Auto
Ins. Co. v. Dyer, 19 F.3d 514, 520 (10th Cir.1994)).
Cox acknowledges that courts are split as to
whether residence can establish domicile or citizenship.
“While the Ninth Circuit has not squarely addressed
the issue of whether residence equates to domicile,
other courts have treated a person’s residence as
prima facie evidence of his domicile.” Ervin v. Ballard
Marine Constr., Inc., No. 16-CV-02931-WHO, 2016 WL
4239710, at *3 (N.D. Cal. Aug. 11, 2016). The Ninth
Circuit has stated that it rejects the Seventh Circuit’s

App.20a
position that “evidence of residency can never establish
citizenship.” Mondragon v. Capital One Auto Fin.,
736 F.3d 880, 886 (9th Cir. 2013). Nonetheless, the
Ninth Circuit also instructs, “A person’s state of
citizenship is established by domicile, not simply
residence, and a residential address in California
does not guarantee that the person’s legal domicile
was in California.” King v. Great American Chicken
Corp., Inc., 903 F.3d 875, 879 (2018). See Mondragon,
736 F.3d at 884 (“That a purchaser may have a
residential address in California does not mean that
person is a citizen of California.”) (emphasis added).
In Mondragon, the Ninth Circuit examined
whether a plaintiff seeking remand based on the “local
controversy exception” of CAFA met his evidentiary
burden to prove the exception applied. Id. at 883. The
court rejected the plaintiff’s argument that allegations
that a class of people with residential addresses in
California—without more—provided a proper inference
of domicile in California for more than two-thirds of
the class such that the local controversy exception
would apply. Id. at 881–82. The court acknowledged
that their “holding may result in some degree of
inefficiency by requiring evidentiary proof of propositions that appear likely on their face” because it
appeared likely that the vast majority of a class of
consumers who purchased and registered cars in
California were California citizens. Id. at 883–84.
Despite this potential for inefficiency, the Ninth
Circuit asserted that “[a] jurisdictional finding of fact
should be based on more than guesswork,” even if that
guesswork may be “sensible.” Id. at 884. See King
903 F.3d at 880 (rejecting a reasonable impression
that greater than two-thirds of employees with last-

App.21a
known residences in California identified as class
members were California citizens because in the
absence of evidence to support that factual finding,
the impression was based on “guesswork”).
Ehrman contends that since the Ninth Circuit was
unwilling to adopt the residency-domicile presumption
for purposes of a CAFA exception, which involves an
evidentiary burden, it would be even less willing to
adopt such that rebuttable presumption with respect
to a CAFA removal, which involves a jurisdictional
question. (Reply, Docket No. 22 at 8.) Cf. Mason v.
Lockwood, Andrews & Newnam, P.C., 842 F.3d 383,
392–93 (6th Cir. 2016), cert. denied sub nom. Lockwood,
Andrews & Newman, P.C. v. Mason, 137 S. Ct. 2242,
198 L. Ed. 2d 678 (2017) (finding the residency-domicile
presumption appropriate in the non-jurisdictional
context of remand for CAFA local controversy exception,
but not in the context of diversity jurisdiction removals
because removal relates to federal courts’ limited
jurisdiction).
Cox has provided the Court with a Notice of Recent
Decision regarding Jimenez v. Charter Commc’ns Inc.,
No. CV186480DOCRAOX, 2018 WL 5118492 (C.D. Cal.
Oct. 19, 2018), which Ehrman agrees “concern[s] the
same issues regarding jurisdiction and remand,” and
which reaches a contrary result.2 (Not., Docket No.
29; Response, Docket No. 34.) In Jimenez, which contained nearly identical factual allegations in the
underlying complaint, the court stated:
2 Ehrman’s response to the Notice of Recent Decision informs
the Court that plaintiffs in Jimenez have filed a petition to
appeal with the Ninth Circuit, which currently remains pending.
(Response, Docket No. 34.)

App.22a
The Court adopts this position [that a
person’s residence is prima facie evidence of
the person’s domicile] where, as here, Plaintiff has admitted she is a California resident
and is bringing claims on behalf of a putative
class of California consumers. In the absence
of evidence to the contrary, Plaintiff is
considered a citizen of California for federal
diversity purposes. Accordingly, based on
Plaintiff’s own admissions, Defendants properly
removed the class action under CAFA.

Id. at *8–*9. Ehrman disputes this outcome, stating

that “Ehrman has no obligation to admit or deny
facts in connection with a facial attack on Cox’s
inadequate removal pleading” and indicating that a
rebuttable presumption of continuing domicile should
only come into play after the domicile has already
been definitively established. (Reply, Docket No. 22
at 6.) See Mondragon, 736 F.3d at 885.
The court in Jimenez cites Harris for the proposition that there is a general presumption against
removal. 2018 WL 5118492 at *2 (citing Harris, 425
F.3d at 698). The decision then states that this antiremoval presumption does not apply in CAFA cases.
Id. (citing Dart, 135 S. Ct. at 554). While the Jimenez
court does not further discuss Harris, the citation
suggests that perhaps courts should not be concerned
about creating separate standards for removal for
CAFA and non-CAFA cases since differing presumptions already exist. In the absence of instruction
from the Ninth Circuit, however, this Court declines
to find that the complaint alone created a rebuttable
residency-domicile presumption of removability. While
both parties at oral argument acknowledged the like-

App.23a
lihood minimal diversity exists in this case—even
going so far as to consider it “inconceivable” that there
would not be diversity between the parties—the Court
finds that Cox’s reliance on the residency allegation
in the complaint still amounted to mere sensible
guesswork such that it is insufficient for establishing
minimal diversity. Although Cox has a low burden of
proving that just one of the putative class members
is a citizen of a state other than Delaware or Georgia,
it is nonetheless a burden that has not been met.
Accordingly, the Court grants Ehrman’s motion to
remand.
B. Motion to Compel Arbitration
Because the Court grants the motion to remand,
the Court denies as moot the motion to compel arbitration.
IV. Conclusion
For the foregoing reasons, the Court grants
Ehrman’s motion to remand for lack of subject matter
jurisdiction and denies as moot Cox’s motion to compel
arbitration.
IT IS SO ORDERED.

App.24a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT DENYING
PETITION FOR PANEL REHEARING
(SEPTEMBER 17, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
DAVID EHRMAN, Individually and
on Behalf of All Others Similarly Situated,

Plaintiff-Appellee,
v.
COX COMMUNICATIONS, INC.; COXCOM, LLC;
COX COMMUNICATIONS CALIFORNIA, LLC, and
DOES, 1 Through 25, Inclusive,

Defendants-Appellants.

________________________
No. 19-55658

D.C. No. 8:18-cv-01125-JVS-DFM
Central District of California, Santa Ana
Before: M. SMITH and FRIEDLAND, Circuit Judges,
and SIMON, District Judge.
The panel unanimously votes to deny the petition
for panel rehearing. Judge M. Smith and Judge Fried The Honorable Michael H. Simon, United States District
Judge for the District of Oregon, sitting by designation.

App.25a
land vote to deny the petition for rehearing en banc,
and Judge Simon so recommends. The full court has
been advised of the petition for rehearing en banc,
and no judge of the court has requested a vote on it.
Fed. R. App. P. 35. The petition for panel rehearing
and the petition for rehearing en banc are DENIED.

App.26a
RELEVANT STATUTORY PROVISIONS
AND JUDICIAL RULES
STATUTORY PROVISIONS
28 U.S.C. § 1332.—Diversity of Citizenship;
Amount in Controversy; Costs
(a) The district courts shall have original jurisdiction of all civil actions where the matter in controversy exceeds the sum or value of $75,000, exclusive
of interest and costs, and is between—
(1) citizens of different States;
(2) citizens of a State and citizens or subjects of
a foreign state, except that the district courts shall
not have original jurisdiction under this subsection of an action between citizens of a State
and citizens or subjects of a foreign state who
are lawfully admitted for permanent residence in
the United States and are domiciled in the same
State;
(3) citizens of different States and in which
citizens or subjects of a foreign state are additional parties; and
(4) a foreign state, defined in section 1603(a) of
this title, as plaintiff and citizens of a State or of
different States.
(b) Except when express provision therefor is otherwise made in a statute of the United States, where
the plaintiff who files the case originally in the Federal courts is finally adjudged to be entitled to recover
less than the sum or value of $75,000, computed
without regard to any setoff or counterclaim to which

App.27a
the defendant may be adjudged to be entitled, and
exclusive of interest and costs, the district court may
deny costs to the plaintiff and, in addition, may
impose costs on the plaintiff.
(c) For the purposes of this section and section
1441 of this title—
(1) a corporation shall be deemed to be a citizen
of every State and foreign state by which it has
been incorporated and of the State or foreign
state where it has its principal place of business,
except that in any direct action against the
insurer of a policy or contract of liability insurance, whether incorporated or unincorporated, to
which action the insured is not joined as a
party-defendant, such insurer shall be deemed
a citizen of—
(A) every State and foreign state of which the
insured is a citizen;
(B) every State and foreign state by which the
insurer has been incorporated; and
(C) the State or foreign state where the insurer
has its principal place of business; and
(2) the legal representative of the estate of a
decedent shall be deemed to be a citizen only of
the same State as the decedent, and the legal
representative of an infant or incompetent shall
be deemed to be a citizen only of the same State
as the infant or incompetent.
(d)
(1) In this subsection—

App.28a
(A) the term “class” means all of the class
members in a class action;
(B) the term “class action” means any civil
action filed under rule 23 of the Federal
Rules of Civil Procedure or similar State
statute or rule of judicial procedure authorizing an action to be brought by 1 or more
representative persons as a class action;
(C) the term “class certification order” means an
order issued by a court approving the treatment of some or all aspects of a civil action
as a class action; and
(D) the term “class members” means the persons
(named or unnamed) who fall within the
definition of the proposed or certified class
in a class action.
(2) The district courts shall have original jurisdiction of any civil action in which the matter
in controversy exceeds the sum or value of
$5,000,000, exclusive of interest and costs, and
is a class action in which—
(A) any member of a class of plaintiffs is a
citizen of a State different from any defendant;
(B) any member of a class of plaintiffs is a
foreign state or a citizen or subject of a
foreign state and any defendant is a citizen
of a State; or
(C) any member of a class of plaintiffs is a
citizen of a State and any defendant is a
foreign state or a citizen or subject of a
foreign state.

App.29a
(3) A district court may, in the interests of
justice and looking at the totality of the circumstances, decline to exercise jurisdiction under
paragraph (2) over a class action in which
greater than one-third but less than two-thirds
of the members of all proposed plaintiff classes
in the aggregate and the primary defendants are
citizens of the State in which the action was
originally filed based on consideration of—
(A) whether the claims asserted involve matters
of national or interstate interest;
(B) whether the claims asserted will be governed
by laws of the State in which the action was
originally filed or by the laws of other
States;
(C) whether the class action has been pleaded
in a manner that seeks to avoid Federal
jurisdiction;
(D) whether the action was brought in a forum
with a distinct nexus with the class members,
the alleged harm, or the defendants;
(E) whether the number of citizens of the State
in which the action was originally filed in all
proposed plaintiff classes in the aggregate is
substantially larger than the number of
citizens from any other State, and the
citizenship of the other members of the
proposed class is dispersed among a substantial number of States; and
(F) whether, during the 3-year period preceding
the filing of that class action, 1 or more other
class actions asserting the same or similar

App.30a
claims on behalf of the same or other
persons have been filed.
(4) A district court shall decline to exercise
jurisdiction under paragraph (2)—
(A)
(i)

over a class action in which—
(I)

greater than two-thirds of the members
of all proposed plaintiff classes in the
aggregate are citizens of the State in
which the action was originally filed;

(II) at least 1 defendant is a defendant—
(aa) from whom significant relief is
sought by members of the plaintiff
class;
(bb) whose alleged conduct forms a
significant basis for the claims
asserted by the proposed plaintiff
class; and
(cc) who is a citizen of the State in
which the action was originally
filed; and principal injuries resulting from the alleged conduct or
any related conduct of each
defendant were incurred in the
State in which the action was
originally filed; and
(ii) during the 3-year period preceding the
filing of that class action, no other class
action has been filed asserting the same or
similar factual allegations against any of

App.31a
the defendants on behalf of the same or
other persons; or
(B) two-thirds or more of the members of all
proposed plaintiff classes in the aggregate,
and the primary defendants, are citizens of
the State in which the action was originally
filed.
(5) Paragraphs (2) through (4) shall not apply
to any class action in which—
(A) the primary defendants are States, State
officials, or other governmental entities
against whom the district court may be
foreclosed from ordering relief; or
(B) the number of members of all proposed
plaintiff classes in the aggregate is less
than 100.
(6) In any class action, the claims of the individual class members shall be aggregated to determine whether the matter in controversy exceeds
the sum or value of $5,000,000, exclusive of
interest and costs.
(7) Citizenship of the members of the proposed
plaintiff classes shall be determined for purposes
of paragraphs (2) through (6) as of the date of
filing of the complaint or amended complaint, or,
if the case stated by the initial pleading is not
subject to Federal jurisdiction, as of the date of
service by plaintiffs of an amended pleading,
motion, or other paper, indicating the existence
of Federal jurisdiction.
(8) This subsection shall apply to any class
action before or after the entry of a class certifi-

App.32a
cation order by the court with respect to that
action.
(9) Paragraph (2) shall not apply to any class
action that solely involves a claim—
(A) concerning a covered security as defined
under 16(f)(3)1 of the Securities Act of
1933 (15 U.S.C. 78p(f)(3)2) and section
28(f)(5)(E) of the Securities Exchange
Act of 1934 (15 U.S.C. 78bb(f)(5)(E));
(B) that relates to the internal affairs or
governance of a corporation or other
form of business enterprise and that
arises under or by virtue of the laws of
the State in which such corporation or
business enterprise is incorporated or
organized; or
(C) that relates to the rights, duties (including fiduciary duties), and obligations
relating to or created by or pursuant to
any security (as defined under section
2(a)(1) of the Securities Act of 1933 (15
U.S.C. 77b(a)(1)) and the regulations
issued thereunder).
(10) For purposes of this subsection and section
1453, an unincorporated association shall be
deemed to be a citizen of the State where it has
its principal place of business and the State
under whose laws it is organized.
1 So in original. Reference to “16(f)(3)” probably should be preceded
by “section”.
2 So in original. Probably should be “77p(f)(3)”.

App.33a
(11)
(A) For purposes of this subsection and section
1453, a mass action shall be deemed to be a
class action removable under paragraphs (2)
through (10) if it otherwise meets the
provisions of those paragraphs.
(B)
(i)

As used in subparagraph (A), the term
“mass action” means any civil action
(except a civil action within the scope of
section 1711(2)) in which monetary relief
claims of 100 or more persons are proposed
to be tried jointly on the ground that the
plaintiffs’ claims involve common questions
of law or fact, except that jurisdiction
shall exist only over those plaintiffs
whose claims in a mass action satisfy the
jurisdictional amount requirements under
subsection (a).

(ii) As used in subparagraph (A), the term
“mass action” shall not include any civil
action in which—
(I)

all of the claims in the action arise
from an event or occurrence in the
State in which the action was filed,
and that allegedly resulted in injuries
in that State or in States contiguous
to that State;

(II) the claims are joined upon motion of a
defendant;
(III) all of the claims in the action are
asserted on behalf of the general

App.34a
public (and not on behalf of individual
claimants or members of a purported
class) pursuant to a State statute specifically authorizing such action; or
(IV) the claims have been consolidated or
coordinated solely for pretrial proceedings.
(C)
(i)

Any action(s) removed to Federal court
pursuant to this subsection shall not
thereafter be transferred to any other
court pursuant to section 1407, or the
rules promulgated thereunder, unless a
majority of the plaintiffs in the action
request transfer pursuant to section 1407.

(ii) This subparagraph will not apply—
(I)

to cases certified pursuant to rule 23
of the Federal Rules of Civil Procedure; or

(II) if plaintiffs propose that the action
proceed as a class action pursuant to
rule 23 of the Federal Rules of Civil
Procedure.
(D) The limitations periods on any claims asserted in a mass action that is removed to Federal
court pursuant to this subsection shall be
deemed tolled during the period that the
action is pending in Federal court.
(e) The word “States”, as used in this section,
includes the Territories, the District of Columbia,
and the Commonwealth of Puerto Rico.

App.35a
28 U.S.C. § 1446—
Procedure for Removal of Civil Actions
(a) Generally.—A defendant or defendants desiring
to remove any civil action from a State court shall
file in the district court of the United States for the
district and division within which such action is
pending a notice of removal signed pursuant to Rule
11 of the Federal Rules of Civil Procedure and containing a short and plain statement of the grounds
for removal, together with a copy of all process,
pleadings, and orders served upon such defendant or
defendants in such action.
(b)

Requirements; generally.—
(1) The notice of removal of a civil action or proceeding shall be filed within 30 days after the
receipt by the defendant, through service or otherwise, of a copy of the initial pleading setting
forth the claim for relief upon which such action
or proceeding is based, or within 30 days after the
service of summons upon the defendant if such
initial pleading has then been filed in court and
is not required to be served on the defendant,
whichever period is shorter.
(2)
(A) When a civil action is removed solely under
section 1441(a), all defendants who have
been properly joined and served must join
in or consent to the removal of the action.
(B) Each defendant shall have 30 days after
receipt by or service on that defendant of
the initial pleading or summons described
in paragraph (1) to file the notice of removal.

App.36a
(C) If defendants are served at different times,
and a later-served defendant files a notice of
removal, any earlier-served defendant may
consent to the removal even though that
earlier-served defendant did not previously
initiate or consent to removal.
(3) Except as provided in subsection (c), if the
case stated by the initial pleading is not removable,
a notice of removal may be filed within 30 days
after receipt by the defendant, through service or
otherwise, of a copy of an amended pleading,
motion, order or other paper from which it may
first be ascertained that the case is one which is
or has become removable.
(c) Requirements; removal based on diversity of
citizenship.—
(1) A case may not be removed under subsection (b)(3) on the basis of jurisdiction conferred by
section 1332 more than 1 year after commencement
of the action, unless the district court finds that
the plaintiff has acted in bad faith in order to
prevent a defendant from removing the action.
(2) If removal of a civil action is sought on the
basis of the jurisdiction conferred by section 1332
(a), the sum demanded in good faith in the initial
pleading shall be deemed to be the amount in
controversy, except that(A) the notice of removal may assert the amount
in controversy if the initial pleading seeks—
(i)

nonmonetary relief; or

(ii) a money judgment, but the State practice
either does not permit demand for a spe-

App.37a
cific sum or permits recovery of damages
in excess of the amount demanded; and
(B) removal of the action is proper on the basis
of an amount in controversy asserted under
subparagraph (A) if the district court finds,
by the preponderance of the evidence, that
the amount in controversy exceeds the
amount specified in section 1332(a).
(3)
(A) If the case stated by the initial pleading is
not removable solely because the amount in
controversy does not exceed the amount
specified in section 1332(a), information
relating to the amount in controversy in
the record of the State proceeding, or in
responses to discovery, shall be treated as
an “other paper” under subsection (b)(3).
(B) If the notice of removal is filed more than 1
year after commencement of the action and
the district court finds that the plaintiff
deliberately failed to disclose the actual
amount in controversy to prevent removal,
that finding shall be deemed bad faith
under paragraph (1).
(d) Notice to adverse parties and State court.—
Promptly after the filing of such notice of removal of
a civil action the defendant or defendants shall give
written notice thereof to all adverse parties and shall
file a copy of the notice with the clerk of such State
court, which shall effect the removal and the State
court shall proceed no further unless and until the
case is remanded.

App.38a
(e) Counterclaim in 337 proceeding.—With respect
to any counterclaim removed to a district court pursuant to section 337(c) of the Tariff Act of 1930, the district court shall resolve such counterclaim in the
same manner as an original complaint under the
Federal Rules of Civil Procedure, except that the
payment of a filing fee shall not be required in such
cases and the counterclaim shall relate back to the
date of the original complaint in the proceeding
before the International Trade Commission under
section 337 of that Act.
[(f) Redesignated (e)]
(g) Where the civil action or criminal prosecution
that is removable under section 1442(a) is a proceeding
in which a judicial order for testimony or documents
is sought or issued or sought to be enforced, the 30day requirement of subsection (b) of this section and
paragraph (1) of section 1455(b) is satisfied if the
person or entity desiring to remove the proceeding
files the notice of removal not later than 30 days
after receiving, through service, notice of any such
proceeding.
28 U.S.C. § 1453—Removal of Class Actions
(a) Definitions.—In this section, the terms “class”,
“class action”, “class certification order”, and “class
member” shall have the meanings given such terms
under section 1332(d)(1).
(b) In general.—A class action may be removed to a
district court of the United States in accordance with
section 1446 (except that the 1-year limitation under
section 1446(c)(1) shall not apply), without regard to
whether any defendant is a citizen of the State in

App.39a
which the action is brought, except that such action
may be removed by any defendant without the consent
of all defendants.
(c) Review of remand orders.—
(1) In general.—Section 1447 shall apply to any
removal of a case under this section, except that
notwithstanding section 1447(d), a court of appeals
may accept an appeal from an order of a district
court granting or denying a motion to remand a
class action to the State court from which it was
removed if application is made to the court of
appeals not more than 10 days after entry of the
order.
(2) Time period for judgment.—If the court of
appeals accepts an appeal under paragraph (1), the
court shall complete all action on such appeal,
including rendering judgment, not later than 60
days after the date on which such appeal was filed,
unless an extension is granted under paragraph
(3).
(3) Extension of time period.—The court of
appeals may grant an extension of the 60-day
period described in paragraph (2) if—
(A) all parties to the proceeding agree to such
extension, for any period of time; or
(B) such extension is for good cause shown and
in the interests of justice, for a period not to
exceed 10 days.
(4) Denial of appeal.-If a final judgment on the
appeal under paragraph (1) is not issued before
the end of the period described in paragraph (2),

App.40a
including any extension under paragraph (3), the
appeal shall be denied.
(d) Exception.—This section shall not apply to any
class action that solely involves—
(1) a claim concerning a covered security as
defined under section 16(f)(3) of the Securities Act
of 1933 (15 U.S.C. 78p(f) (3)1) and section
28(f)(5)(E) of the Securities Exchange Act of 1934
(15 U.S.C. 78bb(f)(5)(E));
(2) a claim that relates to the internal affairs or
governance of a corporation or other form of
business enterprise and arises under or by virtue
of the laws of the State in which such corporation
or business enterprise is incorporated or organized;
or
(3) a claim that relates to the rights, duties
(including fiduciary duties), and obligations relating to or created by or pursuant to any security (as
defined under section 2(a)(1) of the Securities Act
of 1933 (15 U.S.C. 77b(a)(1)) and the regulations
issued thereunder).
JUDICIAL RULES
Federal Rules of Civil Procedure Rule 8.—
General Rules of Pleading
(a) Claim for Relief. A pleading that states a claim
for relief must contain:
(1) a short and plain statement of the grounds
for the court’s jurisdiction, unless the court
1 So in original. Probably should be “77p(f)(3)”.

App.41a
already has jurisdiction and the claim needs no
new jurisdictional support;
(2) a short and plain statement of the claim
showing that the pleader is entitled to relief; and
(3) a demand for the relief sought, which may
include relief in the alternative or different types
of relief.
(b) Defenses; Admissions and Denials.
(1) In General. In responding to a pleading, a
party must:
(A) state in short and plain terms its defenses
to each claim asserted against it; and
(B) admit or deny the allegations asserted
against it by an opposing party.
(2) Denials—Responding to the Substance. A
denial must fairly respond to the substance of
the allegation.
(3) General and Specific Denials. A party that
intends in good faith to deny all the allegations
of a pleading-including the jurisdictional grounds
—may do so by a general denial. A party that
does not intend to deny all the allegations must
either specifically deny designated allegations or
generally deny all except those specifically admitted.
(4) Denying Part of an Allegation. A party that
intends in good faith to deny only part of an
allegation must admit the part that is true and
deny the rest.
(5) Lacking Knowledge or Information. A party
that lacks knowledge or information sufficient to

App.42a
form a belief about the truth of an allegation
must so state, and the statement has the effect
of a denial.
(6) Effect of Failing to Deny. An allegationother than one relating to the amount of damages
—is admitted if a responsive pleading is required
and the allegation is not denied. If a responsive
pleading is not required, an allegation is considered denied or avoided.
(c) Affirmative Defenses.
(1) In General. In responding to a pleading, a
party must affirmatively state any avoidance or
affirmative defense, including:


accord and satisfaction;



arbitration and award;



assumption of risk;



contributory negligence;



duress;



estoppel;



failure of consideration;



fraud;



illegality;



injury by fellow servant;



laches;



license; payment;



release;



res judicata;

App.43a


statute of frauds;



statute of limitations;



and waiver.

(2) Mistaken Designation. If a party mistakenly
designates a defense as a counterclaim, or a
counterclaim as a defense, the court must, if justice
requires, treat the pleading as though it were
correctly designated, and may impose terms for
doing so.
(d) Pleading to Be Concise and Direct; Alternative
Statements; Inconsistency.
(1) In General. Each allegation must be simple,
concise, and direct. No technical form is required.
(2) Alternative Statements of a Claim or Defense.
A party may set out 2 or more statements of a
claim or defense alternatively or hypothetically,
either in a single count or defense or in separate
ones. If a party makes alternative statements,
the pleading is sufficient if any one of them is
sufficient.
(3) Inconsistent Claims or Defenses. A party
may state as many separate claims or defenses
as it has, regardless of consistency.
(e) Construing Pleadings. Pleadings must be construed
so as to do justice.

App.44a
Federal Rules of Civil Procedure Rule 11—
Signing Pleadings, Motions, and Other Papers;
Representations to the Court; Sanctions
(a) Signature. Every pleading, written motion, and
other paper must be signed by at least one attorney
of record in the attorney’s name—or by a party
personally if the party is unrepresented. The paper
must state the signer’s address, e-mail address, and
telephone number. Unless a rule or statute specifically
states otherwise, a pleading need not be verified or
accompanied by an affidavit. The court must strike
an unsigned paper unless the omission is promptly
corrected after being called to the attorney’s or
party’s attention.
(b) Representations to the Court. By presenting to
the court a pleading, written motion, or other paperwhether by signing, filing, submitting, or later advocating it—an attorney or unrepresented party certifies
that to the best of the person’s knowledge, information, and belief, formed after an inquiry reasonable
under the circumstances:
(1) it is not being presented for any improper
purpose, such as to harass, cause unnecessary
delay, or needlessly increase the cost of litigation;
(2) the claims, defenses, and other legal contentions are warranted by existing law or by a nonfrivolous argument for extending, modifying, or
reversing existing law or for establishing new law;
(3) the factual contentions have evidentiary
support or, if specifically so identified, will likely
have evidentiary support after a reasonable
opportunity for further investigation or discovery;
and

App.45a
(4) the denials of factual contentions are
warranted on the evidence or, if specifically so
identified, are reasonably based on belief or a
lack of information.
(c) Sanctions.
(1) In General. If, after notice and a reasonable
opportunity to respond, the court determines that
Rule 11(b) has been violated, the court may impose
an appropriate sanction on any attorney, law firm,
or party that violated the rule or is responsible
for the violation. Absent exceptional circumstances,
a law firm must be held jointly responsible for a
violation committed by its partner, associate, or
employee.
(2) Motion for Sanctions. A motion for sanctions
must be made separately from any other motion
and must describe the specific conduct that
allegedly violates Rule 11(b). The motion must be
served under Rule 5, but it must not be filed or be
presented to the court if the challenged paper,
claim, defense, contention, or denial is withdrawn
or appropriately corrected within 21 days after
service or within another time the court sets. If
warranted, the court may award to the prevailing
party the reasonable expenses, including attorney’s
fees, incurred for the motion.
(3) On the Court’s Initiative. On its own, the
court may order an attorney, law firm, or party to
show cause why conduct specifically described in
the order has not violated Rule 11(b).
(4) Nature of a Sanction. A sanction imposed
under this rule must be limited to what suffices to
deter repetition of the conduct or comparable

App.46a
conduct by others similarly situated. The sanction
may include nonmonetary directives; an order to
pay a penalty into court; or, if imposed on motion
and warranted for effective deterrence, an order
directing payment to the movant of part or all of
the reasonable attorney’s fees and other expenses
directly resulting from the violation.
(5) Limitations on Monetary Sanctions. The court
must not impose a monetary sanction:
(A) against a represented party for violating
Rule 11(b)(2); or
(B) on its own, unless it issued the show-cause
order under Rule 11(c)(3) before voluntary
dismissal or settlement of the claims made
by or against the party that is, or whose
attorneys are, to be sanctioned.
(6) Requirements for an Order. An order imposing
a sanction must describe the sanctioned conduct
and explain the basis for the sanction.
(d) Inapplicability to Discovery. This rule does not
apply to disclosures and discovery requests, responses,
objections, and motions under Rules 26 through 37.

App.47a

NOTICE OF REMOVAL OF DEFENDANT
COX COMMUNICATIONS, INC.
(JUNE 22, 2018)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________________
DAVID EHRMAN, Individually and
on Behalf of All Others Similarly Situated,

Plaintiff,
v.
COX COMMUNICATIONS, INC. and
DOES 1 Through 25, Inclusive,

Defendants.

________________________

Superior Court Case No.
30-2018-00992300-CU-MC-CXC
TO THE JUDGES OF THE UNITED STATES
DISTRICT COURT FOR THE CENTRAL DISTRICT
OF CALIFORNIA:
Defendant Cox Communications, Inc. (“Defendant”), together with Cox Communications California,
LLC (Plaintiff’s actual service provider) (collectively
“Cox”)1 file this Notice of Removal of this action from
1 Plaintiff names Cox Communications, Inc. as the defendant in
this action. However, Cox Communications California, LLC is

App.48a
Orange County Superior Court to the United States
District Court for the Central District of California
pursuant to 28 U.S.C. §§ 1332(a), 1332(d)(2)(A), 1441
and 1446.
Introduction
1. On or about May 9, 2018, Plaintiff David
Ehrman filed a putative class action in the California
Superior Court for the County of Orange, Case No. 302018-00992300-CU-MC-CXC (the “state court action”).
A true and correct copy of Plaintiff’s original complaint in the state court action (the “Complaint”) is
attached as Exhibit A.
2. On May 25, 2018, Defendant was personally
served through its registered agent for service of
process with copies of the Complaint, summons, and
other case initiating documents filed in the state
court action. True and correct copies of all process
and pleadings served upon Defendant are attached as
Exhibits A-C.

the corporate entity that provides Cox services to Plaintiff and
other subscribers in California. Because the claims raised by
Plaintiff arise from or relate to Internet services offered or provided to subscribers in California (and because the purported
class consists of California subscribers), Defendant believes that
Cox Communications California, LLC is the proper defendant in
this action, and that the Complaint should be amended to
replace Cox Communications, Inc. with Cox Communications
California, LLC. In any event, the replacement and addition of
Cox Communications California, LLC is irrelevant to issues
pertaining to removal of the action and, where applicable, facts
relevant to removal for both entities are addressed herein.

App.49a
3. Defendant has filed this notice of removal
within the 30-day time period required by 28 U.S.C.
§ 1446(b).2
4. Jurisdiction. As explained below, this is a civil
putative class action over which this Court has original jurisdiction under 28 U.S.C. § 1332(a) and/or the
Class Action Fairness Act (“CAFA”), 28 U.S.C. § 1332
(d)(2). All of the requirements for diversity jurisdiction under CAFA are satisfied in this case: (1) the
putative class consists of at least 100 members; (2)
the citizenship of at least one proposed class member
is different from that of at least one Defendant; and (3)
the aggregated amount in controversy exceeds $5
million, exclusive of interest and costs. Additionally,
because all proposed class members are citizens of
California, and the Cox entities are citizens of Delaware
and Georgia, there is complete diversity, such that
jurisdiction is independently proper under § 1332(a).
5. In accordance with 28 U.S.C. § 1446(d), Defendant is filing with the Orange County Superior Court,
and serving on Plaintiff, a Notice of Filing of Removal
of Action. A true and correct copy of that notice is
attached hereto as Exhibit E.

2 On June 19, 2018, Defendant was served with a First Amended
Class Action Complaint (“FAC”) filed in the state court action. A
true and correct copy of the FAC is attached hereto as Exhibit
D. Because this action is removable based on the allegations of
the original Complaint, this Notice of Removal is made within
the time period for removal based on service of the original
Complaint and is based on the allegations set forth in the original Complaint. The allegations of the FAC do not alter any
grounds for removal contained in the original Complaint.

App.50a
I.

Allegations of the Complaint

6. In the Complaint, Plaintiff alleges as follows:3
Defendant provides, among other things, residential
Internet services to Plaintiff and other consumers in
California. (Exhibit A, ¶ 4.) Defendant allegedly offers
consumers a variety of Internet speed plans, charging
prices based on different “tiers” of Internet connection
speed. (Id., ¶ 8.) Defendant’s advertisements allegedly
typically, but not always, identify an Internet connection speed “up to” that which a subscriber may expect
to receive service. (Id., ¶ 10.) Defendant allegedly
misled Plaintiff and similarly situated consumers by
promising to deliver residential Internet service at
speeds consumers could rarely, if ever, achieve. (Id.,
¶ 7.)
7. Based on the foregoing, Plaintiff alleges causes
of action for fraud; violation of the False Advertising
Law (Cal. Bus. & Prof. Code § 17500 et seq.); violation
of the Consumers Legal Remedies Act (Cal. Civ. Code
§ 1750 et seq.); violation of the Unfair Competition
Law (Cal. Bus. & Prof. Code § 17200 et seq.); and
restitution and unjust enrichment. (Exhibit A, ¶¶ 2762.)4
8. Plaintiff brings these claims on behalf of
himself and a purported class of “all consumers in
California who paid for Defendants’ residential Internet
services within four years from the date this action
3 Any allegation recited by Cox herein is not intended to be, and
should not be construed as, an admission of the truth of any
allegation in the Complaint.
4 The FAC adds an additional cause of action for “Declaratory
and Injunctive Relief” based on the same alleged conduct giving
rise to Plaintiff’s other causes of action. (Ex. F at 15, ¶¶ 63-67.)

App.51a
was filed [May 9, 2014–May 9, 2018].” (Exhibit A,
¶ 16.)
9. In his Prayer for Relief, Plaintiff seeks, among
other things, injunctive and declaratory relief, restitution and disgorgement, an award of “actual and
punitive damages,” and litigation costs and attorneys’
fees. (Exhibit A, 15: 4-11.)
II.

There Are More than 100 Putative Class Members

10. Plaintiff admits that “there are at least tens
of thousands of putative class members.” (Id., ¶ 17.)
11. According to Cox’s business records, as of
May 9, 2018, Cox had over 832,000 residential Internet
subscribers in California. (Declaration of Yvonne
Hayes In Support of Defendant’s Notice of Removal,
filed concurrently herewith (“Hayes Decl.”) ¶ 5.)
III. Minimal Diversity Exists Between the Parties
12. As admitted in the Complaint, Plaintiff is a
resident of California. (Exhibit A, ¶ 3.) Defendant is
informed and believes, and on that basis alleges, that
Plaintiff is a citizen of the state in which he resides,
as alleged in the Complaint.
13. Defendant is informed and believes, and on
that basis alleges, that all purported class members
are citizens of California, as alleged in the Complaint.
(Exhibit A, ¶ 16.)
14. At the time this action was filed, and at
the time of the filing of this Notice, Defendant Cox
Communications, Inc. was and still is a corporation
organized and existing under the laws of the State of
Delaware, and its principal place of business was and
still is Atlanta, Georgia. (Hayes Decl. ¶ 2.) Accordingly,

App.52a
pursuant to 28 U.S.C. § 1332(c)(1), Cox Communications
Inc. is a citizen of Delaware and Georgia.
15. At the time this action was filed, and at the
time of the filing of this Notice, Cox Communications
California, LLC was and still is a limited liability
company organized and existing under the laws of
the State of Delaware, and its principal place of business was and still is Atlanta, Georgia. (Hayes Decl. ¶ 2.)
For purposes of diversity jurisdiction, the citizenship
of a limited liability company is that of each of its
members. Johnson v. Columbia Properties Anchorage,
LP, 437 F.3d 894, 899 (9th Cir. 2000). The sole member
of Cox Communications California, LLC is CoxCom,
LLC, which, at the time the action was filed, and at
the time of the filing of this Notice, was and is a
limited liability company organized and existing under
the laws of Delaware with its principal place of business in Atlanta Georgia. (Hayes Decl. ¶ 2.) The sole
member of CoxCom, LLC is Defendant Cox Communications, Inc. (Id.) Accordingly, Cox Communications
California, LLC is a citizen of Delaware and Georgia.5
16. Under 28 U.S.C. § 1332(d)(2)(A), a class action
is subject to removal where “any member of a class of
plaintiffs is a citizen of a State different from any
defendant.”
17. Based on the foregoing, there is complete,
and also minimal, diversity between the parties.
5 Some courts, including the Fourth Circuit, analyze citizenship
of an LLC for purposes of CAFA like that of a corporation, by
assessing its principal place of business and place of incorporation. Ferrell v. Express Check Advance of S.C., LLC, 591 F.3d
698, 705 (4th Cir. 2010). Under this test, Cox Communications
California, LLC is a citizen of Delaware and Georgia.

App.53a
IV. The Amount in Controversy Exceeds $5 Million
in the Aggregate
18. Under 28 U.S.C. § 1332(d)(2), an action is
removable under CAFA only where “the matter in
controversy exceeds the sum or value of $5,000,000.
. . . ” The “amount in controversy” for a class action
being removed under CAFA is based on the aggregated claims of the entire class or classes, exclusive
of interest and costs. 28 U.S.C. § 1332(d)(6). Where
no specific amount is stated, the Court “must assume
that the allegations of the complaint are true, and
that a jury will return a verdict for the plaintiff on all
claims made in the complaint.” Korn v. Polo Ralph
Lauren, 536 F. Supp. 2d 1199, 1205 (E.D. Cal. 2008).
“The ultimate inquiry is what amount is put ‘in
controversy’ by the plaintiff’s complaint, not what a
defendant will actually owe.” Id., citing Rippee v.
Boston Mkt. Corp., 408 F.Supp. 2d 982, 986 (S.D. Cal.
2005).
19. When it is unclear from the face of a state
court complaint whether the requisite amount in
controversy is pled, the removing defendant only needs
to make a “plausible allegation” that the amount in
controversy exceeds $5 million. Dart Cherokee Operating Basin Co., LLC v. Owens, 135 S. Ct. 547, 554
(2014). A removing defendant need not submit any evidence with the notice of removal in support of those
allegations. Id. While Cox does not admit or accept
the truth of the claims alleged in the Complaint, and
denies that Plaintiff—or any putative class members—
are entitled to any monetary (or other) relief, the
amount in controversy according to the allegations of
the Complaint satisfies the jurisdictional threshold
under 28 U.S.C. § 1332(d)(2). Although the Complaint

App.54a
does not specify the total amount in controversy,
assuming for purposes of this Notice of Removal that
the allegations of the Complaint are true, it is clear
that more than $5 million has been put in controversy.
20. For his statutory causes of action (two, three,
and four), and the purported cause of action for
restitution and unjust enrichment (five), Plaintiff
seeks “restitution that will restore the full amount of
their [purported class members’] money or property;
[and] disgorgement of Defendants’ relevant profits
and proceeds.” (Id., ¶¶ 39, 45, 56, 62.)
21. The Complaint describes a number of Internet
speed packages offered by Cox, the lowest of which is
“‘Essential 30,’ which promises speeds of up to 30
mpbs [megabits per second].” (Id., ¶ 8.)
22. In May 2018, the monthly fee for the “Essential 30” package was $63.99, while the monthly fee
for that package in May 2014 was $47.99. (Hayes
Decl. ¶¶ 6-7.) The lowest speed package offered by
Cox during the relevant time period was the “Starter”
package. (Id.) In May 2018, the monthly fee for the
“Starter” package was $42.99, while the monthly fee
for that package in May 2014 was $32.99. (Id.)
23. Multiplying 832,000 California residential
Internet subscribers by the lowest price offered for
the lowest speed package during the relevant time
period for even a single month ($32.99) results in a
claimed restitution amount of over $27 million. Given
that many subscribers, including Plaintiff, may have
purchased packages with higher monthly fees and for
more than one month, the amount in controversy is
likely higher.

App.55a
24. Moreover, in addition to restitution, Plaintiff
also seeks disgorgement of profits, attorneys’ fees,
and punitive damages. Because Plaintiff has prayed
for these additional forms of relief, the amount in
controversy calculated above actually understates
the amount in controversy. Rippee, 408 F. Supp. 2d
at 984 (calculation of the amount in controversy takes
into account claims for punitive damages and attorneys’
fees if possibly recoverable as a matter of law).
Conclusion
Because this case is removable pursuant to 28
U.S.C. §§ 1332(a) and (d), further proceedings in the
action in the Superior Court for Orange County should
be discontinued, and the action should be removed to
the United States District Court for the Central District
of California.
Coblentz Patch Duffy & Bass LLP
By:

Dated: June 22, 2018

/s/ Richard R. Patch
Attorneys for Defendant
Cox Communications, Inc.

